No.
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

JOSE ANDRES VERA-GUTIERRREZ,
Petitioner,
v.

MOTION TO PROCEED
IN FORMA PAUPERIS

UNITED STATES OF AMERICA,
Respondent.

Petitioner Jose Andres Vera-Gutierrez, through his undersigned counsel, pursuant to
Supreme Court Rule 39.1, hereby moves this Court for leave to proceed in forma pauperis in
connection with this Petition for Writ of Certiorari and any subsequent proceedings. Counsel
was appointed under the Criminal Justice Act by the district court below and all proceedings
since the trial have been pursuant to the Criminal Justice Act, Title 18, United States Code,
Section 3006(A), ad sequentia, with respect to counsel. The Petitioner has been incarcerated
since arrested.

Dated: November 23, 2020

Respectfully submitted,

s/Jordan S. Kushner
JORDAN S. KUSHNER
MN Attorney ID No. 219307
Attorney for Petitioner
431 South 7th Street, Ste 2446
Minneapolis, MN 55415
(612) 288-0545

